—
I
2311 Douglas Street CO eg KL E s

E-Mail Address:
Omaha, Nebraska 68102-1214

Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

Nos. 20-512 & 20-520

NATIONAL COLLEGIATE ATHLETIC ASSOCIATION, Petitioner,
Vv.
SHAWNE ALSTON, ET AL., Respondents.

AMERICAN ATHLETIC CONFERENCE, ET AL.., Petitioners,
Vs
SHAWNE ALSTON, ET AL. Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF GEORGIA,
ALABAMA, ARKANSAS, MISSISSIPPI, MONTANA, NORTH DAKOTA, SOUTH
CAROLINA, AND SOUTH DAKOTA AS AMICI CURIAE SUPPORTING PETITIONERS in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this

brief contains 7862 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),
as needed.

Subscribed and sworn to before me this 8th day of February, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

, GENERAL MOTARY-State of An ese | z Chk
RENEE J. GOSS °
An ese | Exp. September 5, 2023
Notary Public Affiant 40548
